No.____
IN THE SUPREME COURT OF THE UNITED STATES
SHANE FAITHFUL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
Evan G. Howze, appointed under the Criminal Justice Act, certifies, pursuant to the
Court’s standing order of April 15, 2020, that (1) he served the preceding Petition for Writ
of Certiorari and the accompanying Motion for Leave to Proceed In Forma Pauperis on
counsel for the Respondent by sending, on February 11, 2021, the said documents via electronic mail to the Office of the Solicitor General at SupremeCtBriefs@USDOJ.gov, and
that (2) the Respondent, through Scott A.C. Meisler, Criminal Division, Appellate Section,
U.S. Department of Justice, has waived service of paper copies of these filings and agreed
to electronic service. All parties required to be served have been served.

EVAN G. HOWZE
Assistant Federal Public Defender
Counsel of Record
440 Louisiana, Suite 1350
Houston, Texas 77002
(713) 718-4600
evan_howze@fd.org

